<html>
<title> - THE CRISIS IN HONDURAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         THE CRISIS IN HONDURAS 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2009

                               __________

                           Serial No. 111-26

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-916 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
          Francis Gibbs, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Shifter, Vice President for Policy, Director of the 
  Andean Program, Inter-American Dialogue........................    17
His Excellency Guillermo Perez-Cadalso, Former Foreign Minister 
  and Supreme Court Justice, Republic of Honduras................    24
Ms. Joy Olson, Executive Director, Washington Office on Latin 
  America........................................................    35
Cynthia Arnson, Ph.D., Director of the Latin America Program, 
  Woodrow Wilson International Center for Scholars...............    44
Mr. Lanny J. Davis, Partner, Orrick, Herrington & Sutcliffe LLP 
  (Represents the Honduras Chapter of the Latin American Business 
  Council).......................................................    49
Ms. Sarah Stephens, Executive Director, Center for Democracy in 
  the Americas...................................................    54
The Honorable Otto J. Reich, President, Otto Reich Associates, 
  LLC (Former Assistant Secretary of State for Western Hemisphere 
  Affairs).......................................................    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     4
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................     8
Mr. Michael Shifter: Prepared statement..........................    19
His Excellency Guillermo Perez-Cadalso: Prepared statement.......    26
Ms. Joy Olson: Prepared statement................................    37
Cynthia Arnson, Ph.D.: Prepared statement........................    46
Mr. Lanny J. Davis: Prepared statement...........................    51
The Honorable Otto J. Reich: Prepared statement..................    58

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    80
Ms. Sarah Stephens: Prepared statement...........................    81
Questions submitted for the record by the Honorable Gus 
  Bilirakis, a Representative in Congress from the State of 
  Florida........................................................    84
Responses to the questions submitted for the record by the 
  Honorable Gus Bilirakis from:
  Ms. Joy Olson..................................................    85
  Mr. Lanny J. Davis.............................................    87
  The Honorable Otto J. Reich....................................    88
Mr. Lanny J. Davis: Additional material submitted for the record.    91


                         THE CRISIS IN HONDURAS

                              ----------                              


                         FRIDAY, JULY 10, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. A quorum being present, the Subcommittee on the 
Western Hemisphere will come to order.
    I want to thank my colleagues for being here on a Friday. 
We usually don't have hearings on Fridays, but due to the 
urgency of the matter and the fact that this is something where 
we could not look the other way and just push it back for a 
couple of weeks, I am very glad that we are able to hold this 
hearing. I want to thank my colleague Mr. Mack for his 
cooperation in expediting this hearing.
    Let me start by saying that I am deeply concerned with the 
recent events in Honduras and have called today's hearing to 
focus our attention on the crisis.
    I must say that we had asked the State Department to 
participate in the hearing, and I must express my dismay that 
they chose not to come. I think that Congress, being a coequal 
branch of government, has every right to expect the State 
Department to send a representative when we request it, and I 
understand that there may be things that they would not want to 
say or could not say, and we would respect that; but I must say 
that they need to respect Congress and the wishes of Congress, 
and this better not be a pattern of any kind. I realize there 
are in delicate negotiations going on, and they don't want to 
jeopardize those negotiations and neither do we, but frankly I 
think they could have come and we would have understood that 
certain things could not be said.
    So I just want to make it very clear for the record that if 
this is some kind of pattern, it will not be tolerated by me as 
chairman or by anybody else on this subcommittee. We intend to 
have the State Department respond positively to us when we ask 
for their appearance, and I want everyone to take note that we 
expect them to appear when we invite them in the future.
    I and many other people are deeply concerned with the 
recent events in Honduras and we have called today's hearing to 
focus our attention on the crisis. I issued a statement shortly 
after the events happened in Honduras; and let me say, before 
delving into the details, I would like to state very clearly 
that it is my strong belief that the military should not have 
deposed President Zelaya and whisked him out of the country.
    We can all discuss the events leading up to the removal of 
President Zelaya and I intend to do just that. I think there 
are many good points to make on all sides, and we have 
excellent panelists who will testify on different aspects of 
the situation, and we will agree or disagree with each other.
    But in the end, our hemisphere cannot tolerate what is 
essentially a military coup. We don't want to go back to the 
bad old days when that was commonplace in our hemisphere, and I 
think that this certainly has the remnants of it and is not 
something that we should tolerate.
    But that being said, as you say on the other side of the 
coin, President Zelaya's efforts to hold a referendum on 
whether to create a constituent assembly to change the Honduran 
Constitution is also very troubling. It is my understanding 
that the Honduran Constitution contains several clauses which 
cannot be altered, and among those provisions are those 
limiting the terms of Presidents. According to one 
interpretation, even trying to amend these clauses or proposing 
their reform automatically and immediately ended Manuel 
Zelaya's Presidency for at least 10 years.
    As for me, I am not a scholar of the Honduran Constitution 
and will not even pretend to be an arbiter of Honduran law or 
of these clauses. That is for the courts and political 
institutions of Honduras to decide. But as an observer of the 
region and having watched the run up to the recent crisis, I 
think it was clear that virtually all major Honduran political 
institutions and actors opposed President Zelaya's efforts. Not 
only were the Supreme Court, Congress, and Zelaya's own 
Attorney General against him, I am told even members of his own 
political party and the influential Catholic Church were 
hostile to Zelaya's efforts to change the Constitution.
    I do think this matters. When the entire political 
establishment speaks and expresses dire concerns, the President 
needed to listen. From everything I can, see he did not.
    This is not to say that those who deposed him were angels 
either. Not only am I deeply troubled by the removal of 
President Zelaya and the whisking of him out of the country, 
but I have also heard credible reports of human rights 
violations in the aftermath. If the de facto government wants 
to live up to its assertion that it was defending democracy, 
there is no better way to do so than to respect the views of 
those with whom you disagree in the clamp-down on fundamental 
freedoms and to protect all peaceful dissenters.
    Moving forward, I would like to now discuss the ongoing 
diplomatic process. As I mentioned before, there are 
negotiations going on. President Obama went to the Summit of 
the Americas in Trinidad and Tobago, and many people from our 
subcommittee and myself were there, pledging that the United 
States would be a true partner of countries in the region and 
would treat our neighbors with respect.
    I think the administration has taken a giant step forward 
in fulfilling that commitment with its excellent diplomacy and 
mediation efforts on the Honduran crisis. Our administration, 
the Obama administration, condemned the removal of President 
Zelaya and called it illegal.
    They stood with our partners in the hemisphere by 
supporting a resolution of the Organization of American States, 
calling for President Zelaya's restoration to office. And as I 
mentioned, Secretary Clinton has jump-started a mediation 
effort led by the Nobel Peace Prize winning President of Costa 
Rica, Oscar Arias. With this very strong U.S. diplomatic effort 
in the background, President Zelaya and de facto President 
Micheletti have begun meeting under the auspices of President 
Arias in Costa Rica.
    So I am glad that the Secretary of State and her team are 
navigating the diplomatic waters at this time, and I hope that 
a compromise will come about.
    However, as much as I defend the OAS--and you all know 
yesterday on the House floor I strongly opposed removing money 
from the OAS--I must question the expelling of Honduras from 
the OAS. I am a strong supporter of the OAS, and as I said, I 
spoke on the floor of the House of Representatives last night--
on the floor--talking about not removing money from the OAS. 
But I am concerned about their actions to suspend Honduras. I 
think they have to be consistent in what they do.
    And at a time when we drop the suspension of Cuba and we 
suspend Honduras, I think it sends an inconsistent message to 
the region and the world. I think consistency is important. 
With consistency, you have credibility.
    I must also say I am increasingly troubled by efforts 
throughout the hemisphere to change Constitutions so that 
leaders of certain countries can stay in power after their 
terms end. We see a pattern here in many countries, and I think 
it is a dangerous pattern and it is not a pattern that we 
should support. I think we need to shine a bright light on the 
dangers of this anti-democratic trend.
    And so I say, while the OAS rightly condemned the removal 
of President Zelaya in Honduras, I believe it should also 
criticize its drift away from respect for the constitutionalism 
and the normal transfer of democratic power. If a Constitution 
in any country says that a President cannot run for a second 
term, I think that suspending the Constitution, as was done in 
many different countries, enabling the leader to continue, is a 
troubling trend.
    So I would like to conclude the same way I began. I believe 
what took place in Honduras was wrong and deserves to be 
condemned, but the complicated story doesn't begin or end 
there. It is my hope that this hearing will draw out many of 
the issues surrounding the removal of President Zelaya which 
add color and depth to our understanding of the crisis, with 
the hope that such a series of events will not repeat itself.
    [The prepared statement of Mr. Engel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. And with that, I would like to invite my friend, 
the ranking member, Mr. Mack, to give his opening statement.
    Mr. Mack. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing today. It is very timely. I also want to 
thank the witnesses for making yourselves available and being 
here, and we are very interested to hear what you have to say 
and to maybe pick your brain a little bit. So thank you for 
being here.
    Let me just start off by saying this. This was not a 
military coup, and if somebody--and if there is any fault here 
it is on Mr. Zelaya. He is the one that at every turn turned 
his back on the people of Honduras and his own Constitution, 
which he pledged to uphold.
    As we hold this hearing, parties from all sides are meeting 
in Costa Rica to negotiate a peaceful and democratic resolution 
but it is important to look at the whole picture. Who are the 
main players? How did we get here? And who is meddling from the 
outside?
    Now, Mr. Chairman, we have Mr. Zelaya, a man who refused to 
listen to the Honduran Supreme Court, a man who refused to 
listen to the Honduran Attorney General, a man who refused to 
listen to the Honduran Congress. Mr. Chairman, this is a man 
who tried to undermine the legislature, the judiciary, the 
Attorney General, the Human Rights Commission, business 
associations, and four of the five political parties 
represented in the National Congress, including his own party. 
I am interested to hear what our panel has to say on this.
    Not only that, Mr. Chairman, this is a man that when told 
no by the courts, took it upon himself to storm a military base 
and seize and distribute ballots for an illegal referendum, 
ballots that Hugo Chavez' fingerprints are all over. It seems 
to me that the more we look at Mr. Zelaya, the more we find a 
man who believes he is <greek-l>is  deg.above the law, 
untouchable, and clearly a man who has no respect for 
democracy.
    I also look forward to hearing from our panel on the links 
between Hugo Chavez and Mr. Zelaya. Since he was exiled, Mr. 
Zelaya has been flown around the hemisphere on Venezuelan jets. 
The ballots that were going to be distributed for illegal 
referendum were printed and flown from Venezuela. Furthermore, 
there are further reports that Mr. Zelaya has been involved in 
drug smuggling from Venezuela and other places in South 
America. Also, there is little doubt that Mr. Zelaya violated 
Article 239 of the Honduran Constitution which clearly states 
that ``anyone who violates this provision must immediately 
cease the discharge of their duties.''
    As the parties negotiate in Costa Rica, I want to make one 
last point. I believe the Obama administration should be 
commended for making a renewed commitment to Latin America, but 
at the same time, by calling this a coup, and by early 
statements insisting on the reinstatement of Mr. Zelaya, the 
administration now stands with the likes of Chavez, Morales, 
and Ortega and not with the Honduran people.
    While we all want a peaceful and democratic resolution, now 
is not the time to stand--now is the time to stand for freedom 
and the Honduran people in their fight against the tyranny of 
the Bolivarian revolution.
    Mr. Chairman, thank you again for holding this hearing and 
I look forward to hearing from our panelists later.
    Mr. Chairman, I just want to say that yesterday on the 
floor you had the opportunity to speak against the motion to 
recommit, talking about the OAS and Honduras. I have a 
different opinion. I believe the OAS is a dangerous 
organization that is not fighting for freedom or democracy but, 
instead standing in the way and giving an opportunity for 
people like Hugo Chavez and others to use the OAS to undermine 
democracy in the Western Hemisphere.
    I hope that as we move down the road we can have a hearing 
that is more focused on the OAS so we can have a lengthy debate 
on whether or not the OAS is still an organization that should 
be supported by the United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mack follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Well, thank you, Mr. Mack, and you know I am 
always open to having hearings on a myriad of issues. So we can 
certainly discuss that.
    Because we have seven very excellent panelists and I want 
to hear from them, I am going to restrict opening statements to 
2 minutes for each person. We will go down the line. I will 
start with Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I will try to do it in 
2 minutes.
    First of all, I think that we have come a long way in the 
United States from where we were in 2002. There was a coup 
d'etat in Venezuela, and within 48 hours we supported the coup 
d'etat government. We have got to make those improvements, and 
I think we have made that with this administration this time.
    We clearly cannot turn back the hands of time. I had the 
opportunity at the inauguration of President Martinella to talk 
to several heads of State, including President Arias, who said 
that we cannot allow coup d'etats, and this is the governments 
of other areas to try to figure out how we make sure that we 
don't turn back the hands of time.
    And that is what this is literally about. I am nervous, as 
the chairman is, that the hands of time is not turned back; 
that whether Mr. Zelaya has done whatever he has done, I don't 
believe that the military has the right to come in and pull him 
out. It would have been the equivalent, I would think, of at 
the time that when President Nixon who had violated laws and 
the Constitution of the United States, had we not conducted a 
process in which he would have been impeached, of having in the 
middle of the night the United States Army going into the White 
House and taking President Nixon out and having him exiled.
    Clearly, there is a violation, but there is something that 
has to be done within the democratic process to make sure that 
those who have committed that violation of that office is 
democratically removed, in my estimation.
    Also, I think that it is also important that when you talk 
about the OAS--and in this particular situation, that there are 
33 Nations there. And we talk about democracy and talking 
about--and it took them, I know they took over 24 hours here in 
Washington, DC, working and trying to come together as an 
organization in a democratic process to decide what to do with 
reference to Honduras. And it is not just the United States 
acting in a unilateral manner, as the President has said, but 
the United States acting in conjunction with others in the 
region to make a difference.
    We have got serious concerns here. I want to hear the 
witnesses. I wish I had more time, but I am being gaveled 
already by my friend, the chair, and I yield back.
    Mr. Engel. Thank you. Thank you, Mr. Meeks.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I will be very brief 
in my remarks, but I do want to make a few comments. Look 
forward to the testimony.
    I agree with the ranking member that this is not a military 
coup. This was ordered by the Supreme Court. The President was 
in violation of his own Constitution. He disregarded his own 
Attorney General. And what is most disturbing to me is that 
these ballots Zelaya ordered printed, at least from the 
information I have, came from Venezuela. This is the same type 
of thing that Hugo Chavez pulled off in his country, and it 
seems to me that that is the same pattern that Mr. Zelaya is 
emulating.
    I would like to know from the panelists, what I am most 
interested in, and what I think the ranking member indicated, 
is what is the connection between Mr. Chavez and Venezuela? 
What is the connection between Venezuela and Honduras?
    And with that, I yield back the balance of my time.
    Mr. Engel. Thank you Mr. McCaul.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. The still unfolding 
events in Honduras are both shocking and frustrating. On the 
one hand, you have a President who overstepped his 
constitutional bounds; on the other hand, you have a military 
that exiled a democratically elected President. Now, our 
Government is condemning the military removal of President 
Zelaya, but look at the company we keep. We are supporting a 
man who plotted to hold an illegal vote and circumvent the 
Constitution.
    In the ongoing debate, whether President Zelaya acted 
undemocratically or if it was the military who acted 
undemocratically, although it appears they are both at fault, 
it is important to remember that just a few weeks ago President 
Zelaya proudly led the movement to readmit Cuba into the 
Organization of American States. The OAS resolution on Cuba did 
not mention the Inter-American Democratic Charter, and now he 
is calling on Honduras and the international community to 
uphold this charter.
    These events make me seriously question the stability of 
democracy not only in Honduras but in Latin America. 
Governments throughout the region have made remarkable progress 
since the days of military coups and the oppressive regimes, 
but the actions in Honduras severely obstruct this process. 
Unfortunately, this is not the first time we have witnessed 
such grasps for unchecked power.
    It is clear that democratic principles continue to be at 
risk in this hemisphere. And I would like to thank the 
panelists that are here, and I look forward to hearing what you 
have to say.
    Mr. Engel. Thank you Mr. Sires.
    Mr. Smith.
    Mr. Smith. Thank you. I appreciate the chairman's 
disappointment that the administration is AWOL today. Congress 
has a right and an obligation, a duty, to know what the 
administration is or is not doing during this crisis.
    Mr. Chairman, the world is slowly waking to the reality 
that what at first might have looked like a military usurpation 
of democracy, courtesy of very sloppy news reporting, was 
actually the culmination of the democratic process, a process 
that began months before.
    The branches of the government of Honduras, the Supreme 
Court, the Congress, and the military performed just as they 
were intended to by the wise writers of the Honduras 
Constitution. Mr. Zelaya was removed from office for his 
unconstitutional and illegal attempts to alter the Constitution 
of Honduras for purely selfish reasons. Latin Americans are 
rightly sick and tired of Presidents violating the rule of law 
to ensure their own Presidency in perpetuity.
    Article 239 of the Honduran Constitution explicitly says, 
and I quote: ``No citizen who has already served as head of the 
executive branch can be President or Vice President.'' 
Moreover, the Constitution also makes clear that anyone who 
tries to alter the term limits of the Office of the President 
is guilty of treason.
    The Honduran Supreme Court has stated that the military 
acted on its orders and the Honduran Congress overwhelmingly 
passed a decree removing President Zelaya from office and 
replacing him with the President of the Congress. The military 
has not retained power. Upcoming Presidential elections 
continue to move forward on schedule.
    Finally, the surface appeal argument is that what happened 
in Honduras was a coup, but that in my view, in my opinion, 
melts under any serious scrutiny. Rather, democracy and the 
rule of law triumphed over Mr. Zelaya's lawlessness.
    I congratulate the people of Honduras for their foresight 
in the writing of a Constitution and for their courage to take 
action in support of the rule of law. I yield back the balance.
    Mr. Engel. Thank you Mr. Smith.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing. Coming from Texas, and our relationship with both 
Mexico and Central America and Latin America, this is very 
important because we have a number of Honduran Americans who 
live in our district.
    When President Zelaya announced that he would hold a 
nonbinding referendum asking Honduran voters whether they 
wanted a constituent assembly to establish or amend their 
Constitution, the situation in Honduras started to deteriorate. 
The issue culminated on June 28 when Honduran military 
surrounded the Presidential residence and arrested President 
Zelaya and flew him to Costa Rica just hours before the polls 
were to open.
    President Zelaya has since been denied return entry, and 
the Honduran Congress approved a decree suspending a number of 
bill-of-rights issues and constitutional rights that I have 
concerns about. While I don't agree with what President Zelaya 
has done during his administration, the restoration of 
democracy in Honduras is critical for its stability. And I 
applaud organizations like the OAS and CARICOM and UNASUR for 
quickly and equivocally condemning the Honduran military 
action, but I also know that we need to have have an impartial 
negotiation. And I am glad Secretary Clinton announced that 
former President Arias of Costa Rica will be that mediator to 
have democracy restored.
    And again like my colleagues on both sides, we see that in 
our administration and our hemisphere a return to a strong man 
in military government and usurping the constitutional 
authority, whether it be in Honduras or in other parts of the 
hemisphere, including Venezuela, and I would hope that we would 
see our country providing the leadership for democracy and not 
necessarily just for whoever happens to have the strong power 
at that time.
    And I yield back my time.
    Mr. Engel. Thank you Mr. Green.
    Mr. Burton, our former ranking member and chairman.
    Mr. Burton. Thank you, Mr. Chairman. I will just take a 
couple seconds here. First of all, I talked to some people at 
the State Department yesterday and they told me that they 
wanted to give SICA, the Central American Integration System 
headed by Mr. Arias, a chance to try to resolve this by getting 
all the facts. And I think the facts are not clear, of course, 
but nevertheless they wanted to give him some time and that was 
the reason they said they didn't want to appear today. I 
disagree with that. They should be here, but nevertheless that 
was the reason that they gave.
    I would just like to reiterate what the ranking member 
said, and I thought he said it extremely well, and that is that 
the arrest warrant was issued by the Supreme Court that ordered 
the armed services to arrest Mr. Zelaya.
    Now in the United States if an arrest warrant is issued, 
the police go out and arrest him and they put him in handcuffs 
and they take him to jail. In this particular case, the 
military was told to do it and they did it, and so when 
everybody talks about this being a military coup, I just don't 
get it. There was an arrest warrant issued by the Supreme 
Court. The President had violated the Constitution and had not 
paid any attention to anybody that was giving him the proper 
advice. And so I don't see that this was a military coup.
    And, with that, I yield back the balance of my time.
    Mr. Engel. Thank you Mr. Burton.
    Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I am going to keep 
it really brief because I know we are going to have votes soon 
and we have a distinguished panel here that I think it is 
important to hear from.
    Mr. Engel. Thank you. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for convening 
this hearing to help us to come to terms with the development 
in Honduras and understand the dynamics and potential outcomes 
of this very serious leadership crisis unfolding there. I 
believe it is vitally important to take a deep breath here and 
just simply look at the facts, understand the objective truth 
about Honduras' civil democratic institutions, as well as the 
scale and the scope of abuses of power attributed to Mr. 
Zelaya.
    I would also implore our panel to assess the policy 
judgments made by the administration thus far in this crisis, 
the OAS, as well as other key and regional as well as 
international players in this situation.
    So, with that, Mr. Chairman I yield back.
    Mr. Engel. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman, for calling 
this hearing. I think that as you have indicated, I think it is 
a bad trend when we have people try to alter the Constitution 
of countries. I mean, to extend terms of office. However, by 
the same token, I can't see where anyone can say that if you 
take somebody out with an Army and guns, put them on a plane, 
and, as he tries to come back, you got the military at the 
airport saying, if you come any closer we'll shoot you down. 
That is a military something. I mean, it is like a duck, you 
know.
    So it is a very complicated situation here and, you know, I 
think that because Venezuela was supportive of the President 
there, it doesn't mean that we should therefore condemn that 
country. If we start doing that, we will have to look at every 
country in the world and who they associate with, and that 
certainly wouldn't make any sense. So I think it is a very 
complicated situation. I hope that we can get to the bottom of 
it.
    As a previous member mentioned, we have had Presidents who 
didn't take the advice of their Attorney General. As a matter 
of fact, Mr. Peabody, the Attorney General, was fired by the 
President back in the Nixon days because he wouldn't give him 
the judgment that he wanted. Not saying that it was right to do 
it here, nor was it right to do it there.
    So this is a really complicated situation and I hope we can 
come up with a solution. But once again, in the African Union, 
when a country is taken over by the military, that country is 
suspended from the African Union. They do not tolerate, because 
once it happens here, it will happen there, and it will happen 
at the next place, and you will have that way to take out 
Presidents.
    Mr. Engel. Thank you.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. This hits home with 
me because my Honduran American constituents are particularly 
concerned that President Zelaya was slowly stripping away the 
rule of law in Honduras. They fear that Honduras is going to 
turn away from its democratically elected and constitutionally 
based institutions and evolve into a Hugo Chavez type of State.
    I think what is particularly disconcerting for me is the 
fact that no American official at the U.S. Embassy in Honduras 
or the State Department has spoken with the current President 
of Honduras.
    The Obama administration has made a feature of their 
diplomacy efforts to listen to all sides and have even 
displayed a willingness to talk with avowed enemies of the 
United States, and yet the administration has refused to speak 
with the institutions in Honduras like the Supreme Court, the 
Congress, or even the President, to fully understand what 
happened and why Mr. Zelaya has been removed.
    I look forward to hearing from the witnesses as to why the 
administration continues to ignore the will of the Honduran 
people and the rule of law and what can be done to facilitate 
regular order in Honduras.
    Thank you, Mr. Chairman.
    Mr. Engel. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. I want to welcome our 
witnesses, and just let me say a couple of things very quickly. 
A coup is a coup is a coup. A military coup is a military coup, 
and I am really disturbed by us talking about how it is almost 
beginning to set new standards for what constitutes a military 
coup.
    Just as I was opposed to the coup d'etat in Haiti, which 
the United States enabled and supported under the Bush 
administration--and that is what happened, you know--I don't 
see how we can continue to allow these coup d'etats to take 
place and get away with it.
    And so I say to you today, to the committee and to you, our 
witnesses, that for me and for many of us, a coup is an 
unacceptable way to resolve any dispute and I am glad that the 
international community has been swift and been firm in 
condemning the military's actions. And I too am disappointed 
that our administration is not here today, but I am pleased 
that they are moving forward to try to bring parties together 
to resolve this and hopefully send out a message that military 
coups are unacceptable, regardless of the circumstances, 
because I think that we are walking down a slippery slope if we 
begin to set new standards for what we consider military coups.
    Mr. Engel. Thank you.
    Mr. McCaul. Will the gentlewoman yield?
    Mr. Engel. Let me have everybody make their opening 
statement and then we will hear the panelists, I think.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, a coup is a coup is a coup. And what 
happened in Honduras is not a coup. Coup is when the military 
replaces a democratic government with a military leader. What 
happened in Honduras is a victory for democratic government and 
the rule of law over Caudioism. It was not a coup d'etat but 
the defeat of a left-wing coup led by a corrupt elitist who has 
been implicated in the drug trade. This would-be Caudio was 
engaged in an anti-democratic power grab. His intent was to be 
a strong man in the mold of either Castro or Chavez or, 
whatever strong man it was, but he was trying to seize power 
for himself. It was a power grab. He was leading a street mob 
to give himself that unlimited power. Stopping someone like 
that is a victory for democracy.
    We don't need Latin America sliding back, whether it is 
left-wingism or right-wingism in terms of the Caudioism that it 
reflects. That should have been left behind a long time ago, 
and his defeat and the defeat of that power grab, as I say, no 
matter how it was accomplished, is a great victory for 
democracy in Central America and Latin America in the long run.
    We all know that we all know what he was trying to do. We 
should be happy and applauding that he was stopped from that 
horrible power grab which would have ended real democracy in 
his country.
    Mr. Engel. Thank you.
    Mr. Delahunt.
    Mr. Delahunt. I thank the gentleman, and I don't think you 
can put a shine on this sneaker. I mean common sense tells you 
that it is a coup, whether it is a military coup, but it 
certainly was an unconstitutional removal.
    You know, I am just concerned about not what is happening 
in this room in this hearing, but the message that is being 
received all over Latin America at this moment in time. What 
you are hearing, of course, is this is about Hugo Chavez. Well, 
I want my colleagues, particularly my friends on the other side 
of the aisle, to stand with Felipe Calderon, to stand with 
Alvaro Uribe, to stand with the President of Chile, to stand 
with all of the other democratically elected Presidents in 
Latin America who have condemned this, who aren't trying to 
parse.
    I never realized how many experts we have, by the way, on 
the Honduran Constitution. I mean, it is amazing. There must be 
a class somewhere. I haven't taken it yet, so I have to 
acknowledge my own ignorance. Of course, it is coup.
    And who are these people? I don't know who they are. I 
mean, I really don't know. I do know, however, that the current 
provisional President attempted the same thing that President 
Zelaya did in 1985, but I bet there wasn't a peep out of this 
institution at the time. He attempted to extend the term of 
some President in the mid-1980s by 2 years, according to a 
report. I find that interesting but that is irrelevant to this.
    I am sure some of the people are well-intentioned, but I 
did note, and I think it is important that--and I haven't heard 
outrage expressed by anyone, including members on the other 
side, about the statements of the Provisional Foreign Minister 
whom they had to dump. But let me tell you what he had to say 
about the President of the United States: I like the little 
Black sugar plantation worker.
    Mr. Engel. The gentleman's time has expired.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I appreciate your 
letting me sit in this hearing. I congratulate you for calling 
it, and I am going to pass an opportunity to make a statement, 
a prepared statement, and listen with great interest to what I 
can learn about this situation in Honduras. Thank you.
    Mr. Engel. Thank you, Mr. Hinojosa.
    Now I am going to introduce our distinguished witnesses. I 
think the toughest thing about being a witness is you have to 
listen to all of us before we can listen to you. That is the 
price you have to pay. I am sorry.
    Let me ask our witnesses to please keep their testimony to 
5 minutes apiece. You do not have to read your statements if 
you don't want to. You can ask that they be submitted into the 
record and they will be as if they had been written--as if they 
had been repeated, and you can just summarize and that might be 
better. I will leave it up to the witnesses.
    Let me mention all of our witnesses. Michael Shifter is 
vice president for policy at the Inter-American Dialogue. 
Welcome.
    Guillermo Perez-Cadalso is a former Honduran Foreign 
Minister and Supreme Court Justice and currently serves as 
professor of international law at Honduras National University. 
Welcome.
    Joy Olson is executive director of the Washington Office on 
Latin America, WOLA. Welcome.
    Cynthia Arnson is director of the Latin America Program at 
the Woodrow Wilson International Center for Scholars. We 
welcome you.
    Lanny Davis is a personal friend of mine, but a partner 
with Orrick, Herrington and Sutcliffe, and is here today 
representing the Honduras Chapter of the Latin American 
Business Council. Welcome.
    And Sarah Stephens is the executive director of the Center 
for Democracy in the Americas. We welcome you.
    And last but not least, Otto Reich. He is president of Otto 
Reich Associates and the former Assistant Secretary of State 
for Western Hemisphere Affairs. Welcome.
    And we will start with Mr. Shifter.

 STATEMENT OF MR. MICHAEL SHIFTER, VICE PRESIDENT FOR POLICY, 
    DIRECTOR OF THE ANDEAN PROGRAM, INTER-AMERICAN DIALOGUE

    Mr. Shifter. Thank you very much, Mr. Chairman. I would 
like to submit my statement for the record.
    I want to commend you for holding this hearing. The 
Honduras situation poses a real critical test for the U.S. 
Government and for the hemisphere. What happened on June 28th 
in Honduras was a rupture in the democratic order, the 
democratic process, that I think was properly censured by the 
United States and the hemispheric and international community.
    President Zelaya has more than his share of blame for 
provoking the crisis to begin with by defying the Supreme Court 
and the Congress. While all the legal procedures there had been 
followed before his ouster, his forced removal from Honduras 
was a clear violation of the Constitution and basic democratic 
norms.
    Having rightly condemned what happened, the main task was 
to calm the tensions and try to work out a solution. I am not 
sure that opting for a more punishing stance by quickly issuing 
an ultimatum for the return of President Zelaya and suspending 
Honduras from the OAS was the wisest course.
    The attempted unsuccessful return of President Zelaya last 
Sunday was particularly counterproductive. As a result, both 
sides became more entrenched in their positions.
    Today this crisis has moved to the phase of negotiation 
under President Arias. This is an encouraging sign, but caution 
is in order. The first day showed this is going to be difficult 
and may take some time to work out. There is tremendous 
bitterness and distrust between the two parties. Still, one can 
imagine elements of a formula that will hopefully be agreed to. 
It is crucial that conditions in Honduras permit fair and 
credible elections that are now scheduled for the end of 
November.
    It is welcome that the United States is discreetly 
supporting this initiative announced by Secretary of State 
Clinton last Tuesday. The Honduras crisis has posed two 
difficult challenges for the United States. The first concerns 
how to deal with the interruption of the democratic process in 
the region, balancing legality and legitimacy against 
maintaining social peace and governability on the ground in 
Honduras.
    The second challenge involves finding an effective 
multilateral approach that engages with Latin American partners 
while also being active in helping to shape a favorable 
outcome. The idea is to try to resist the temptations to impose 
a solution or dictate a solution but, alternatively, not to 
withdraw and be passive either.
    In general, I think the Obama administration has struck the 
right balance on both of these challenges. It was important to 
bear in mind from the beginning however, that decisions made on 
principle in response to the coup could nevertheless have 
unintended consequences. The suspension of Honduras, for 
example, would either exacerbate or diminish the polarization 
that was, after all, the root cause of the crisis.
    This is a case for combining principle with pragmatism. The 
U.S. is now seen as an important and honest broker in the 
region. As I said, the OAS took the right stand on the crisis, 
but might have waited and explored other measures before 
resorting to such a confrontational response--which did not 
work and, in fact, seemed to only have hardened positions on 
all sides.
    The OAS might have also tried to anticipate and prevent the 
heated situation before it reached a boiling point. Alert 
mechanisms are difficult and there are difficult questions 
about sovereignty, but this is an essential function 
appropriate for a regional body like the OAS. The head-on 
collision in Honduras had been building for some time, and an 
effort should have been made to defuse the mounting tensions.
    Looking ahead, even though President Arias has taken the 
lead as mediator, the OAS should support the efforts to reach a 
compromise in Honduras. What this crisis has done is to bring 
into sharp focus the question of double standards and hypocrisy 
applied to different situations in Latin America. It is not 
that the OAS shouldn't have reacted to this situation, but that 
it should have reacted to others. The OAS has indeed been too 
passive and silent in dealing with ruptures in the democratic 
order and other situations.
    There needs to be way to focus on improving the Inter-
American Democratic Charter and the way it is applied and 
implemented in Latin America. One idea is to not restrict the 
use of the charter to the executive branch, but also extend it 
to other branches of government and to the opposition. This 
could have worked in the Honduras case to head off the eventual 
coup. Unfortunately, power grabs in defiance of democratic 
norms and institutions are too common in Latin America, so the 
charter and OAS member governments need to take that disturbing 
tendency into account.
    Finally, it would be surprising if the United States did 
not have to deal with similar situations in Latin America in 
the future. At least several parts of the region are unsettled. 
And I hope this case shows the wisdom of working in concert 
with regional partners to seek solutions that reflect common 
sense and pragmatism but are anchored in the rule of law.
    I look forward to your questions. Thank you.
    Mr. Engel. The gentleman's time has expired.
    [The prepared statement of Mr. Shifter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Engel. Mr. Perez-Cadalso.

  STATEMENT OF HIS EXCELLENCY GUILLERMO PEREZ-CADALSO, FORMER 
    FOREIGN MINISTER AND SUPREME COURT JUSTICE, REPUBLIC OF 
                            HONDURAS

    Mr. Perez-Cadalso. Chairman Engel, Ranking Member Mack, and 
the other distinguished members of the subcommittee, thank you 
for inviting me today.
    I will now provide a summary of my prepared statement which 
I request to be included in its entirety in the record.
    My name is Guillermo Perez-Cadalso. In the past I have 
served my country as the Minister of Foreign Affairs, as a 
Supreme Court Justice, and as the President of the National 
University of Honduras. Today, however, I come before you with 
the title of concerned Honduran citizen and not as a government 
representative.
    I have spent this week as part of an ad hoc diverse 
delegation of other concerned Honduran citizens visiting with 
many Members of Congress. While we have made some progress in 
creating greater understanding of the history and context of 
what has happened in my country, I want to share with you some 
facts and observations that have been lost or confused in the 
intense media coverage.
    One, the military is not in charge of Honduras. The 
constitutional order of Honduras remains intact. Our Government 
continues to be led by a civilian executive branch, a duly 
elected Congress, and our judicial branch, guided by our 1982 
Constitution and the rule of law. Indeed, it was the proper 
application of our Constitution, the rule of law and 
Presidential succession that initiated the recent events in 
Honduras.
    Two, many have confused the timing of key events. For 
example, Mr. Zelaya was charged with crimes against the form of 
government, treason, abuse of authority, and usurpation of 
power, and the Supreme Court ordered his arrest before he was 
taken out of the country.
    Three, there has been a failure to separate the issue of 
Mr. Zelaya's removal from the country versus his proper removal 
from the President's Office, according to our Constitution, and 
a result of very serious criminal charges against him. I only 
speculate as to what the military did and why. Taking Mr. 
Zelaya out of the country could have been the result of a 
terrible dilemma. It is possible that the military, which was 
properly ordered to arrest Mr. Zelaya by the Honduran Supreme 
Court, to uphold the Constitution, thought it would be more 
prudent to take him out of the country rather than hold him in 
custody in Honduras and risk greater civil unrest and violence. 
After all, the military faced the person who had already abused 
his stature, inciting a mob, and using the threat of violence 
to storm an Air Force base.
    Four, there has been a great misunderstanding about the 
extent of support for Mr. Zelaya. There is a broad consensus in 
Honduras that Mr. Zelaya violated the law and our Constitution. 
The Honduran Supreme Court voted 15-0 that he broke the law. 
The national Congress voted 124 out of 128 that he broke the 
law, including every Member of Congress from his own party.
    He Attorney General, the Supreme Electoral Council, and the 
Human Rights Commissioner all agree that Mr. Zelaya broke the 
law. Others who agree include four out of five of the political 
parties representing more than 90 percent of the Congress, 
including Mr. Zelaya's own party. Many labor unions, the 
private sector, and the Catholic and Evangelical and other 
Protestant churches.
    Meanwhile tens of thousands of Hondurans have marched for 
peace and democracy and to express support for the 
constitutional succession, including more than 50,000 people on 
July 3rd alone in Tegucigalpa.
    Before concluding, here are several thoughts and hopes for 
the future. First, the facilitation of the mediation by 
President Oscar Arias is welcome, and we praise Secretary of 
State Hillary Clinton's endorsement of the dialogue process 
which should work toward a phased solution that includes fact 
finding. We also appreciate that the U.S. Government joined 
last week with other governments in the Organization of 
American States in advising Mr. Zelaya that it was not the 
right time to travel back to Honduras.
    Second, I believe that the OAS did not live up to the 
letter and spirit of its charter in this instance. It was too 
quick to accuse, too soon to judge, and too eager to condemn. 
The OAS could have acted to prevent the situation, but, sadly, 
stood silent in the face of months of misconduct by Mr. Zelaya. 
After the constitutional succession occurred, the OAS did not 
engage in collaborative fact finding; and if they had done so, 
the burden to host the dialogue would not have fallen on 
President Arias.
    Third, we hope that the interim government's earnest 
efforts to engage in the dialogue are proof enough that the 
restrictions on credit flows from international financial 
institutions should be lifted and that bilateral and 
multilateral cooperation in eight programs should be continued. 
These restrictions only exacerbate the effect of the 
international economic crisis on Honduras and the Honduran poor 
and shortchange United States-Honduran efforts to combat drug 
trafficking and organized crime.
    Finally, the dialogue can succeed if both sides refrain 
from personal, emotional reactions and stick to constructive 
discussions about the issue. Each side can find common ground 
and solutions if there is a willingness to act in good faith in 
the higher interest of our country.
    Thank you, and I will gladly take your questions.
    Mr. Engel. Thank you.
    [The prepared statement of Mr. Perez-Cadalso follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Engel. Ms. Olson.

  STATEMENT OF MS. JOY OLSON, EXECUTIVE DIRECTOR, WASHINGTON 
                    OFFICE ON LATIN AMERICA

    Ms. Olson. Thank you, Mr. Chairman, for the invitation to 
speak today, and I would request that my written statement be 
submitted for the record.
    Mr. Engel. Without objection, so ordered.
    Ms. Olson. Thank you. I must say it has been painful to 
watch the conflict playing out in Honduras in the past few 
weeks. It is a country I love and where I spent the formative 
years of my professional life. I am not going to spend much 
time talking about the facts of what happened, as there will be 
a lot of that. I would like to make a couple of observations. 
One, it is not only the U.S. who identified this as a coup. 
Every country in the hemisphere has identified this as a coup. 
It is not something that we are standing alone on.
    Second, it seems like there was plenty of violating of the 
law going around on all sides, and those are important issues; 
but, again, I think there was plenty of it happening.
    Also, back to the coup issue for a second. When the 
military takes the President by force in his jammies to the 
airport and puts him on a flight out of the country, that is a 
coup. You know, if it walks like a duck and talks like a duck, 
it is a duck.
    Let me also say a few things about what this situation is 
not. It is not about Venezuela. No matter how much President 
Chavez might want it to be or his opponents might want it be, 
it is not about Venezuela. It is also not about liking Zelaya 
or how popular he is. If that were the standard, former 
President Toledo of Peru never would have made it to the end of 
his term after his approval rating bottomed out at 7 percent.
    While the immediate crisis is around Zelaya's return, there 
is more ongoing political crisis in Honduras. It is a crisis in 
the party system. Many poor people don't bother to vote, 
viewing the choice between parties as meaningless. The last 20 
years of democratic transitions have done little to address the 
political and economic marginalization experienced by the 
majority of Hondurans.
    I would like to say a few things about the administration's 
handling of this situation. I think that it was good. It was 
swift to condemn the coup. The decision to use the OAS in its 
diplomatic efforts to address the conflict was a welcome change 
from our historic interventions in Latin America which are well 
remembered in the region. The administration had talked about 
changing the U.S. Government's modus operandi and working 
through multilateral institutions, and in this case I think 
they walked the walk.
    That said, the days following the coup were riddled with 
mixed messages from the State Department about whether a coup 
had actually occurred. I am not sure that the State Department 
lawyers have yet made this determination.
    The issue seems to have been that the administration wanted 
to use aid as a leverage to get the two sides to the table, a 
noble goal; but the law is clear that U.S. aid to a government 
must be suspended if there is a coup. If the military sending a 
President into exile in his pajamas doesn't qualify as a coup 
then what does?
    I want to just leave you with one quote from the State 
Department press briefing. I was following them the past 2 
weeks and their responses about this issue and section 7008, 
the coup language in the Foreign Operations Appropriations Act, 
their statements were incredibly convoluted.
    On the 6th of this month the press spokesman at the State 
Department had this to say: ``We are suspending, as a policy 
matter, assistance programs we would be legally required to 
terminate if the events in Honduras are found to have triggered 
section 7008.''
    As Congress moves forward to rewrite the Foreign Assistance 
Act, I would suggest that you consider further clarifying 
section 7008, the coup clause, defining what should be 
suspended, and the process by which the suspension is 
determined. I would also suggest making it clear that military 
assistance provided through the Defense Department and not only 
through the Foreign Assistance Act should be suspended as well. 
Being wishy-washy about applying 7008 for well over a week 
after the coup I think sets a bad precedent.
    On the role of the OAS, generally throwing stones at the 
OAS is fairly easy sport, but this is the kind of situation 
that makes clear the need for the OAS. In the immediate 
aftermath of the coup, no other body could have dealt with this 
crisis. A unilateral intervention on the part of the United 
States or, say, Venezuela, would have been disastrous. The fact 
that governments of all political stripes were unified in their 
condemnation of the coup and the suspension of Honduras from 
the OAS did two things. It made clear that no matter how many 
people dislike the President, coups are no longer accepted in 
the region. And it also helped push this crisis toward 
mediation.
    Another critical role the OAS played in the last week was 
in monitoring human rights. The Inter-American Commission on 
Human Rights followed up on reports of violence, compiled 
detailed lists of individuals at risk or missing, and monitored 
restrictions on freedom of the press and association. In 
conclusion, there is a mediation process now in place. And I 
think we should all be supportive of President Arias as this 
process moves forward. There can be opportunity in crisis. The 
question is will the end result of the mediation be a limping 
along of democracy until the next election or some real 
introspection on both sides about the more fundamental crisis 
of Honduran democracy and the existing political parties. Thank 
you.
    [The prepared statement of Ms. Olson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Thank you.
    Dr. Arnson.

   STATEMENT OF CYNTHIA ARNSON, PH.D., DIRECTOR OF THE LATIN 
   AMERICA PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Ms. Arnson. Thank you very much, Mr. Chairman, for this 
invitation. I would also like to ask that my remarks be 
submitted for the record. I would like to say----
    Mr. Engel. Without objection, so ordered.
    Ms. Arnson. Thank you--that I welcome the subcommittee's 
focus on Central America, a continuation of the historic role 
that this subcommittee played during the Central American wars 
in the 1980s and their subsequent resolution in the 1990s.
    As the opening statements demonstrated, mostly by the 
members of the subcommittee as well as by members of this 
panel, every crisis and every conflict reflects deeply 
contrasting narratives regarding relevant facts. What I will 
attempt to do in the short time that I have is not so much to 
rehash those facts, but perhaps to provide a broader context 
for understanding these disparate realities.
    The crisis of governance reflected in the coup against 
President Zelaya has both proximate and deeper antecedents. The 
proximate cause, as we have heard several times this morning, 
was Zelaya's insistence on a national referendum that the 
Honduran Congress as well as the Supreme Court considered 
illegal and unconstitutional. The end game of that referendum 
would have been to permit changing the Constitution for Zelaya 
to extend his term and eventually, one supposes, to convene a 
constituent assembly to draft a new Constitution.
    Should these changes have taken place, Honduras would 
indeed have embarked on a path similar to those taken in 
Venezuela, Bolivia, Ecuador, and to a lesser extent, or 
earlier, in Nicaragua, where elected Presidents have 
spearheaded processes of constitutional reform that erode 
checks and balances, strengthen the power of the executive 
branch, and create alternative participatory mechanisms for the 
exercise of so-called popular democracy.
    Quite apart from the immediate sequence of events, the 
Honduran crisis has deeper roots. They can be found precisely 
in the weaknesses and limitations that make the populist 
temptation in Latin America not only attractive but also 
feasible. The weakness of the Honduran democratic institutions; 
the inadequacy of mechanisms of representation, and the failure 
of Honduras's economic growth and international insertion in 
the last several years to overcome the country's endemic 
poverty and inequality.
    The coup and the military's role in throwing Zelaya out of 
the country reflect the Honduran political system's inherent 
weakness and the absence of mechanisms and a legal framework to 
resolve political conflict through political means. Overcoming 
this basic crisis of governance must be an essential feature of 
any long-term and enduring solution to the current and highly 
unstable impasse.
    The acceptance of President Oscar Arias as a mediator in 
the crisis is extremely positive, even though the events of the 
last few days have shown that this will not be an easy 
mediation. President Arias has broad credibility in the region 
as well as world-recognized experience in brokering peace. It 
is worth mentioning and underscoring that the Central American 
Peace Plan that he devised in the 1980s linked the end of civil 
war to internal democratic reforms as an essential ingredient 
of peace.
    The Obama administration, I believe, has acted 
appropriately and even admirably in response to the crisis. 
They have honored their commitments at the Summit of the 
Americas to work in partnership and seek multilateral solutions 
to regional problems. The support for the efforts of the OAS 
and now for President Arias reflect an understanding of the 
value of partnership over unilateralism.
    I also believe that the Obama administration has been 
appropriately restrained and prudent with respect to the 
elimination of U.S. economic aid in response to the coup. The 
example of Haiti should stand as a sober reminder of the 
consequences that harsh economic sanctions against a 
desperately poor country can have.
    I would like to conclude by saying that the Honduran crisis 
should serve as a wake-up call, to the extent that it might 
still be needed, that despite huge advances in electoral 
democracy in Latin America over the last two decades, the 
quality of democracy and the scope of social inclusion remain 
deeply flawed and at times fundamentally compromised.
    Supporting the capacity of democratic institutions and 
fostering strategies for inclusionary growth remain the central 
challenges, even more urgent at a time of economic hardship and 
reversal. Thank you.
    [The prepared statement of Ms. Arnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Thank you.
    Mr. Davis.

STATEMENT OF MR. LANNY J. DAVIS, PARTNER, ORRICK, HERRINGTON & 
  SUTCLIFFE LLP (REPRESENTS THE HONDURAS CHAPTER OF THE LATIN 
                   AMERICAN BUSINESS COUNCIL)

    Mr. Davis. Thank you, Mr. Chairman and Ranking Member Mack.
    I would like to first say that it is a pleasure to be here 
in the presence of friends on both sides of the aisle.
    I see Congressman Delahunt, who I knew before his hair was 
gray, and is a great public servant.
    And I see Congressman Dan Burton, who at some point in my 
past career, I was at times an adversary, but always friendly, 
always civil.
    And of course, my friend Chris Smith, who I consider a very 
close personal friend.
    And Chairman Engel and I happen to also be close personal 
friends.
    And the reason I wanted to start out that way is that this 
issue calls for bipartisanship, calls for civility, and calls 
for dialogue. And I represent a client, so I am not speaking 
for myself. There were days when Dan Burton and I debated on 
television where I was speaking for myself. But I am speaking 
on behalf of the Honduran chapter of the Business Council of 
Latin America, called CEAL, C-E-A-L.
    And like Justice Perez, I am here to talk about solutions, 
as our great President reminds us, looking forward rather than 
looking backward. And I believe Chairman Engel and Ranking 
Member Mack have essential agreement on two things. One is Mr. 
Zelaya violated the law. There is no doubt. Facts are facts. 
With all due respect to my co-panelist, Ms. Olson, no, there 
wasn't a lot of law-breaking going on. The Supreme Court voted 
15 to zero that Mr. Zelaya broke the law. That included eight 
members of his political party elected justices. The Congress 
124 to 4, including all the members of his political party, 
voted that he violated the law. His own attorney general, the 
human rights commissioner, that is as independent of the 
government as the GAO is, has supported the finding that he had 
to be removed from office because he violated the Constitution 
with a self-executing clause that says, if you try to extend 
your term, you are automatically removed from the presidency.
    Now, having said that, my clients believe that looking back 
with the wisdom of hindsight, it could have been done 
differently that night that the army decided to whisk him out 
of the country. And I am not afraid to say that, with the 
wisdom of hindsight, it probably should have been done 
differently. As long as those of you, and I know Congressman 
Delahunt shares that view, are also willing to share the 
distaste for a President that regarded himself as above the law 
and every institution in Honduran society, from the church to 
civil organizations, to business organizations, to the liberal 
party, to the national party, to the Supreme Court and the 
Congress, every institution found this President as putting 
himself above the law.
    If both facts are stated by my friends on the Democratic 
side, where I am affiliated, and my friends on the Republican 
side, we can then look forward, as President Obama and 
Secretary Clinton want us to do, and not argue about past 
history. So now let's look forward together.
    Secretary of State Clinton did a great service in turning 
to President Arias, a Nobel Prize winner, and saying, ``Let's 
have dialogue and let's find a solution, one that is going to 
take time,'' that doesn't involve immediately parachuting Mr. 
Zelaya back into Honduras; one that recognizes that there is a 
compromise necessary on all sides. And my client favors such a 
compromise. And that is about dialogue.
    And finally, whatever the solution, it cannot be imposed by 
the OAS, the United States, by my friends who are Democrats or 
my friends who are Republicans. It has to be a Honduran 
solution. Right now every institution in Honduras and every 
public opinion poll taken supports this civilian government--
there is no military running this government--supports this 
civilian government, but also wants a peaceful solution. But it 
has got be to be a Honduran solution between the leaders of 
Honduras as well as Mr. Zelaya. And under the auspices of 
President Arias and Secretary of State Clinton, I can see no 
better way than dialogue and ultimately a peaceful solution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Thank you very much.
    Ms. Stephens.

STATEMENT OF MS. SARAH STEPHENS, EXECUTIVE DIRECTOR, CENTER FOR 
                   DEMOCRACY IN THE AMERICAS

    Ms. Stephens. Does that work okay?
    Mr. Engel. Yes. You can pull it closer, if that might be 
easier for you. Whatever is easier for you.
    Ms. Stephens. Thank you, Chairman Engel, Ranking Member 
Mack, and members of the subcommittee for holding this hearing 
on the crisis in Honduras today.
    I would like to begin by simply expressing my sympathies to 
the people of Honduras for the violence and political turmoil 
they have experienced since June 28th. It is understandable and 
perhaps inevitable that their crisis has triggered a larger 
debate about policy and politics, democracy and diplomacy.
    But neither their humanity nor their dignity should be 
forgotten as we discuss the implications of the coup for all of 
us inside and outside of Honduras. In fact, their interests and 
ours are in alignment. In that context, let me make three basic 
points.
    First, I believe that the goal of our policy and our 
diplomacy should be resolving this crisis in a manner that 
restores the constitutional order to Honduras and returns 
President Zelaya to office.
    Second, we need to stand with the region in saying loudly 
and clearly that military coups cannot be regarded ever again 
as acceptable alternatives to democracy.
    Third, we need to understand that there is a principled 
debate occurring in the Americas about democratic institutions 
and the Constitutions which protect them. At times, some 
nations will make choices through democratic means that may 
disturb and discomfort us deeply. But our long-term interests 
in democracy and stability in the Western Hemisphere can only 
be vindicated if by our words and actions we are seen as 
respecting, rather than undermining, their sovereignty and 
their decisions.
    While we may disagree about some of these issues, I would 
hope that we could speak with one voice on whether it was 
appropriate for military force to be used against the 
presidency of Mel Zelaya. After all, the top legal adviser for 
the Honduran armed forces told the Miami Herald, ``we know 
there was a crime there.'' And I would say, ``so do we.''
    Similarly, Edmundo Orellana, a congressman who served as 
Mr. Zelaya's defense minister and resigned from his position 
just days before the coup because he believed Mr. Zelaya was 
breaking the law, wrote Congress this week that President 
Zelaya's ouster was illegal, and that he would refuse to take 
his legislative seat until Mr. Zelaya was reinstated.
    This drives home the most important theme of the recent 
events in Honduras. Regardless of ideology or one's opinion of 
President Zelaya's behavior prior to the coup, can't we say 
this with clarity? Coups are wrong. They are undemocratic, and 
they taint the hands of everyone who touches them. When 
violence becomes a substitute for politics, everything falls 
apart.
    That has been the sad story in many places across Latin 
America, and that is why so many people in the region are as 
proud as they are today for having tried to put that history 
behind them. As President Lula said recently, what we have 
achieved in these years was in truth the result of the deaths 
of many people, many young people who decided to take up arms 
to bring down authoritarian regimes in Chile, Argentina, 
Uruguay, Brazil, and almost all countries. They died, and we 
are doing what they dreamed of doing, and we have won this by 
democratic means.
    None of us want to see that progress rolled back, which is 
why being clear about why this coup is unacceptable is so 
important to the region and to our national interest. Against 
this backdrop, it is extremely important that President Obama 
has taken the position from the inception of this crisis that 
reversing the coup and returning President Zelaya to his nation 
and to his office were political and diplomatic priorities for 
the United States.
    As he said just 3 days ago during his trip to Russia, 
America cannot and should not seek to impose any system of 
government on any other country. Even as we meet here today, 
America supports now the restoration of the Democratically-
elected President of Honduras, even though he has strongly 
opposed American policies.
    Against the expectations of some in the region, the United 
States has reacted with prudence to these events, and that 
strengthens us and our long-term interests in the Western 
Hemisphere. The crisis in Honduras came at a particularly 
crucial moment. There are debates taking place in Latin America 
about the role of the state and what democracy should do when 
their institutions fail to deliver what their people need and 
want.
    This is hardly a new phenomenon. Governments of all 
ideological stripes have rewritten their Constitutions in Latin 
America for decades, for centuries. This is not a question, as 
some would have it, simply of left versus right. Colombia is 
discussing right now whether President Uribe will have the 
chance to run for a third term. Nor is it only a debate about 
centralizing power in the executive. Nations do this to improve 
governance, to end exclusion, and to open opportunity.
    As Jennifer McCoy of the Carter Center pondered recently, 
does democracy allow for its own renewal living within the 
rules of the game? There are real and legitimate questions 
about when that does get out of hand, but we have to be very 
careful, in light of the region's history and ours, about how 
and when we ask those questions. These are serious issues, and 
we place a lot at risk if we treat them lightly.
    We should support democracy in places like Honduras, not 
only when we like the choices the people are making but also 
when they use elections rather than violence to make those 
choices for themselves, even when we disagree with the outcome. 
We share a common border with this region and confront a common 
set of problems. Diseases, criminality and security, 
environmental challenges and proliferation, none can be solved 
without us being good partners, not by imposing, but by 
listening and operating multilaterally.
    If we identify with their democratic aspirations, our 
country will be much more successful in the region moving 
forward. It is that interest and those concerns which I believe 
are at stake for us in the crisis in Honduras today.
    Thank you.
    [The prepared statement of Ms. Stephens was not received 
until after the hearing. It appears in the Appendix.]
    Mr. Engel. Thank you very much.
    Mr. Reich.

STATEMENT OF THE HONORABLE OTTO J. REICH, PRESIDENT, OTTO REICH 
   ASSOCIATES, LLC (FORMER ASSISTANT SECRETARY OF STATE FOR 
                  WESTERN HEMISPHERE AFFAIRS)

    Mr. Reich. Thank you, Mr. Chairman, and members of the 
committee. I appreciate again this opportunity to speak with 
you, and I would like to submit my complete remarks for the 
record.
    Mr. Engel. Without objection, so ordered.
    Mr. Reich. The current battle for political control of 
Honduras is not only about that small nation. What happens in 
Honduras may one day be seen as either the high water mark of 
Hugo Chavez's attempt to undermine democracy in this 
hemisphere, or as a green light to the continued spread of 
Chavista authoritarianism under the guise of democracy.
    The removal of President Zelaya from office 2 weeks ago 
referred to, mainly outside of Honduras, as an attack on 
democracy. In contrast, prominent Honduran journalists and 
scholars, who are not members of the government, describe it in 
the exact opposite fashion, as the legal and defensible 
measures of two co-equal branches of the Honduran Government 
against the autocratic intent of the executive.
    Many Hondurans insist that these actions saved democracy by 
preventing Zelaya from establishing the kind of 21st century 
socialism that is being established in countries of Latin 
America under something called the ALBA, an alliance invented 
by Castro and financed by Chavez. We must find a bipartisan way 
to defend the true democrats in Honduran. I respectfully 
suggest to this Congress that one way to do so may be to ask 
the elected representatives of the people of Honduras, their 
Congress, why they voted, I had 125 to 3, but it turns out that 
I hear now it is 124 to possibly 4, for the removal of Zelaya.
    Either way, the equivalent of that vote in this House of 
Representatives would have been about 415 to 11, with a few 
abstentions. You, our Representatives in Congress, more than 
anyone know that when nearly all freely elected members of a 
nation's Congress give such bipartisan support to such a 
momentous measure, there must be an unusual reason. In 
Honduras, the reason was genuine fear for the future of the 
country.
    I freely admit that I am not an expert on Honduran law and 
therefore not qualified to judge the legality of this action. I 
would also point out, however, that most in this country and 
other countries who have rushed to condemn the Zelaya removal 
are at least equally unqualified to judge it. How can the so-
called democratic community allow Cuba, Venezuela, Bolivia, and 
other countries that have either destroyed self-rule or are in 
the process of doing so to determine the standards of democracy 
in the region?
    ALBA has a consistent modus operandi, subvert the 
foundations of self-rule, such as free elections and referenda, 
gain power, concentrate it in the hands of the executive, 
steadily diminish civil liberties, and then change the rules 
and even the definitions of democracy to remain in power 
indefinitely through any means necessary, including force. In 
my opinion, what took place in Honduras on June 28th, when the 
military removed Zelaya on an order of the Supreme Court, 
should have been handled differently.
    As an American, I would have liked to have seen Zelaya's 
charges better publicized in advance of the arrest, to have 
seen civilian authorities, not military forces, arrest Zelaya. 
I would not have expelled him from the country, but would have 
detained him and given him the opportunity to defend his 
actions like any other accused felon.
    But I am not a Honduran. I did not feel threatened by 
Zelaya's increasing authoritarianism, as did the Honduran 
Congress, for example. I did not fear the undermining of my 
country's democratic institutions by Zelaya, as did the 
Honduran Supreme Court. I did not know the extent of 
interference by Venezuelan, Cuban, and other foreigners in the 
internal affairs of my country, as did the Honduran armed 
forces.
    Had I been a Honduran, not living peacefully in the United 
States as most of us in this room do, I would have heard the 
exceptional denunciations of the Catholic Church and the 
protestant churches protesting Zelaya's abuses of power. At the 
same time, however, one does not have to be a Honduran to 
understand the anger of the average citizen at the documented 
and repeated instances of gross dishonesty by Mel Zelaya, his 
family, and members of his cabinet.
    I cannot excuse the zeal with which the military broke into 
Zelaya's house, but it may be explained by Zelaya's illegal 
misuse of the police and military to take over private 
properties, deny access to rightful owners, and thus benefit 
his extended family. To use the forces of the law to commit 
unlawful acts is immoral. That may also explain the church's 
condemnation of Zelaya.
    Commendably, the legal adviser of the Honduran armed 
forces, as has been mentioned here, admitted the law was broken 
in expelling Zelaya, an action they, the armed forces, 
justified as taken to prevent violence. When was the last time 
the legal adviser of Chavez or Castro's armed forces, assuming 
they even have such a position, admitted a criminal error in 
handling a case?
    I will submit the balance of my remarks for the record, Mr. 
Chairman. But in conclusion, let me say that it is always an 
honor for me to be asked to testify before the U.S. Congress, 
because I have never taken the freedoms this country has 
afforded me for granted. I am an immigrant, a Cuban American 
who lived under two dictatorships in his native country, then 
saw it enslaved by communism.
    I have been privileged to serve our Government in and out 
of uniform for over 15 years. I fervently exercise my civil 
rights because I once lost those rights and know how precious 
they are. I urge this Congress not to condemn Hondurans for 
defending theirs, even if we may not approve of the one mistake 
to which the military have already confessed.
    Thank you very much.
    [The prepared statement of Mr. Reich follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Engel. Thank you very much. Let me say that we can see 
that our very distinguished panelists and excellent testimony 
represents a wide range of views on the subject, and I think we 
have heard a lot of good points from a lot of different people.
    For me, I think the question that I would like to 
concentrate on is, where do we go from here? Obviously, there 
are negotiations going on with Mr. Arias. And the United 
States, as has been mentioned, has been instrumental in putting 
together those discussions.
    Secretary Clinton has been very helpful in doing this. If I 
could close my eyes and say, well, what kind of possible 
solution or a compromise can come out of these negotiations, I 
would bet that the most probable thing to come out would be a 
return to power of Mr. Zelaya to finish out his term, which I 
believe is 4 more months, and then have a new election, as was 
scheduled in Honduras in November, an election where Mr. Zelaya 
would be barred from running for a second term, as was 
mentioned, and as has been stated by the Honduran Constitution. 
I would bet the house that that would be the solution that 
would come out. I would like anyone's comments on that.
    Would that be a viable compromise, and is it something that 
you think would be likely to come out of these discussions? 
Anybody want to try it?
    Mr. Davis?
    Mr. Davis. Mr. Chairman, the first thing I would like to 
say is, I would rather not offer advice to the parties as to 
how to solve this. But I can offer some principles that are in 
alignment with what you just said and what my clients believe. 
The one principle most important is the rule of law needs to be 
upheld. So any solution that involves a return of Mr. Zelaya, 
if that is the choice----
    Mr. Engel. Mr. Davis, would you just hold for a minute?
    I notice in the audience there are some signs. And I would 
please ask the people to put those signs down, because I think 
it is inappropriate.
    Thank you very much.
    Mr. Davis.
    Mr. Davis. So, in alignment with really most of the remarks 
heard on both sides of the aisle, and certainly with yours, Mr. 
Chairman, there are two principles that I certainly believe 
that Mr. Zelaya, Mr. Micheletti, and President Arias are aimed 
at discussing.
    One is that the rule of law is very important. Mr. Zelaya 
needs to acknowledge that, and certainly needs to acknowledge 
that the Supreme Court, his own party in the Congress, and all 
the other institutions have found him to have violated the law, 
and he has to be held accountable, as do the people who may 
have violated the law by sending him out of the country in the 
middle of the night.
    So there may be a solution that is equal-handed about 
forgiving both of those violations in return for certain 
commitments. But the principle is the rule of law.
    And the second principle is democracy and security that 
goes with the democracy. And the elections, as you mentioned, 
must take place. And there must be a new President. Someone 
from his party is running. And someone from the opposition 
party, national party, and three other parties, are running.
    So those two principles, the rule of law and some agreement 
on how the rule of law is to be applied equally, and democracy 
and security. I believe that President Arias can bring the 
parties together to achieve those two principles.
    Mr. Engel. Thank you.
    Dr. Arnson, I noticed you had your hand up.
    Ms. Arnson. Once again, I think the interpretation of what 
constitutes the legal solution in Honduras is a contested 
issue. As a United States citizen I would share Mr. Davis's 
reluctance to define how Honduran politicians and how the 
Honduran public should resolve this crisis.
    But I, frankly, find it improbable that a resolution to the 
crisis could be found that does not include President Zelaya's 
return to Honduras. At the same time, what he attempted to do 
that the Supreme Court and the Congress have found in violation 
of the Constitution should not be allowed to take place.
    I think it might be entirely reasonable, to prevent 
deepening polarization between now and the month of November, 
to attempt to move up those elections, make sure that they are 
fully observed, monitored, not only at the time of the 
balloting but before and in the period afterwards, to guarantee 
that the political process goes forward in an open and 
democratic fashion without intimidation, without violence.
    I would think that there may be some role for an 
international observer mission under the auspices of the OAS or 
the United Nations to establish itself in Honduras as an 
international mechanism to help Hondurans overcome 
polarization. I believe that the country is deeply divided, 
probably equally in favor and against President Zelaya.
    I think, and I disagree with what was said earlier, I think 
that a majority of Hondurans--not a majority, but a plurality--
oppose the way in which he was removed. And I hope that what 
Mr. Davis has described as the need to look forward and not to 
become entrenched in the positions and principles that have 
been articulated up until now will be possible, because 
adherence to those deeply entrenched positions will lead to a 
continued stalemate. And I think what is needed is a way for 
both sides to be flexible in order to break this impasse.
    Mr. Engel. I think that one of the things that I hear 
again, you know, people are arguing that President Zelaya's 
removal from power was constitutionally appropriate.
    The troubling thing, and even people who, in the panel, who 
are saying that President Zelaya violated the law, I mean can 
anybody tell me where in the Honduran Constitution it gives the 
military the right to remove a President from power at gunpoint 
and whisk him out of the country? I don't think that anyone 
differs with me on that. I don't think that there is anything 
in the Honduran Constitution that would give the military that 
power.
    I see people shaking their--nodding their heads. So I think 
that is something that is troubling. But I do think that the 
United States can play and should play a very positive role in 
trying to mediate these results.
    Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman.
    You know, first of all, I appreciate the testimony from 
everyone. And you know, it is such an important hearing because 
what we are trying to get our arms around is democracy in Latin 
America. And not all Constitutions are written the same.
    But it is clear, and you don't have to be an expert, as 
someone mentioned, on the--one of my colleagues mentioned 
earlier, to understand the Honduran Constitution, you just have 
to read it. And it is clear in Article 239 of the Constitution 
of Honduras that by the order of the Supreme Court, which we 
have, which we can read, which says to arrest the President, 
that the military was just acting out the constitutional 
responsibility passed to them by the Supreme Court. It is not 
that hard to figure out. You don't have to be a scholar. You 
just have to read it.
    This idea that this is a coup is so disturbing to me, that 
you could say with a straight face, after hearing the testimony 
from the panelists and the members that sit up here. The 
military is not in charge of Honduras. Therefore, you cannot 
have, it cannot be a military coup. The military acted on the 
rule, on the order of the Supreme Court. So I think we need 
to--someone needs a paradigm shift.
    People need to understand and stop calling this a coup. The 
negotiations that are going on right now, if at the base of 
that is that this is a coup, it is going to be very difficult 
to get to a solution that follows the Constitution of Honduras. 
And anything other than something that follows the rule of law 
and the Constitution of Honduras sets a horrible precedent.
    Mr. Davis, I was very interested in your testimony. And I 
understand it is on behalf of your client. So I want to ask you 
this: Does your client believe that this was a military coup?
    Mr. Davis. My client wants me to answer that question based 
on the facts. And the facts are, there is no military person in 
charge of this government. The government is now de facto being 
run by the successor under the Constitution, the President of 
the Congress. So the word military would be inappropriate as 
far as my clients are concerned.
    On the other hand, I think my clients would agree with the 
chairman that there is nothing in the Constitution that allows 
somebody to be shipped out of the country in the way that it 
was done. So the wisdom of hindsight is not about his removal 
as President. That, under Article 239, as you said, is 
expressly stated; it is an automatic--he automatically loses 
office under the wording of that Constitution.
    And my colleagues here who talk about democracy seem to 
want to ignore a Constitution adopted after military 
governments in Honduras ruled in 1982. And that Constitution is 
as sacrosanct to Hondurans as ours is.
    So the Constitution said he had to be removed. The Supreme 
Court 15 to zero agreed, and so did all the members of his 
party. But the issue of whether he should have been whisked 
away in the dead of night by the army is what is troubling. And 
it is not an easy issue to dismiss. And from my clients' 
standpoint, they are troubled about that. And I can only say 
that what I am authorized is the wisdom of hindsight statement 
that I made.
    It should have been done differently. But just remember the 
context, the President of Honduras led a mob, the President 
himself, you can see it on YouTube, led the mob that overtook 
the army guards into the barracks to seize ballots that had 
been shipped in by Mr. Chavez. Now that is just a fact. And the 
atmosphere was fearful of physical safety. And it was that 
context that I believe, with the wisdom of hindsight, something 
was done that should have been done differently.
    Mr. Mack. Thank you, Mr. Davis.
    And I agree with that. I agree with your statements. I 
would say this, that if the Supreme Court, the Congress, the 
business groups, the churches, if all of these groups came 
together to say that the removal of the President was the right 
thing to do, certainly they could also come together to say, we 
don't think he should have been flown out of the country, and 
Hondurans could have figured out the right course to go to make 
sure that that didn't happen again, that their Constitution was 
followed, that the rule of law was followed, but to also make 
the statement that, in the future, they won't be flown out of 
the country.
    Mr. Engel. Thank you, Mr. Mack.
    The time has expired.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I want to thank all of the witnesses for being here at what 
is a very important hearing. And I think that it gives us a lot 
of food for thought. And I don't want to jump ahead of 
ourselves, because I do believe that what President Arias is 
doing and, you know, sometimes I am trying to look at the prism 
whether the glass is half full or half empty.
    Some people are saying that democracy throughout South and 
Central America is being threatened. Well, democracy in 
Honduras may be, but the reaction of the countries in Central 
and South America, who are upset about what has taken place, 
which has caused them to sit down and try to work together to 
resolve this so that we do not turn back the hands of time, 
shows that we still have come a long way. It shows that folks 
even in the region want to work together to make sure that 
democracies reign and hopefully will also show that those 
democracies will soon mean that those who have not had for such 
a long period of time. Because the bottom line here are still 
those poor people in the Honduras, one of the poorest nations 
on the hemisphere, who, no matter what the system of 
government, has never received anything.
    So the hope is that we learn something and that we move 
forward. And I think that also what is different here, and one 
of the things that the prior administration had been criticized 
and looked about all over the world in the wrong way, is acting 
unilaterally. I think the fact that this current 
administration, acting in a multilateral situation, with other 
nations that are concerned in the region, is a positive step 
forward to try to make sure that democracy does remain and 
prevails throughout this hemisphere especially, but throughout 
the world.
    Now, I do have, and I would just like to ask some 
questions, you know, that I don't know, just to get your 
opinion in this scenario. Because I am concerned about those 
poor people, and I am also concerned because you see some human 
rights group talk about the individuals who were out there 
demonstrating with the interim government who is there, that 
there has been some things going on with them.
    But we have decided, as far as the United States is 
concerned, to suspend all foreign aid to Honduras, including 
the Millennium Challenge account and other things. I am 
concerned about the poor getting hurt more. I would like to 
hear your opinion whether or not we should continue that 
suspension or whether we should do something differently so 
that we could make sure that those who are caught in the middle 
here, the poorest of the poor, are not hurt. What do you think 
that we should do as the United States in that regard? I would 
like to hear that.
    Ms. Olson.
    Ms. Olson. Just to clarify, because I looked into this 
matter, in 2002, the coup language, the 7008 clause I was 
referring to, was changed so that the suspension is not to the 
country, but it is to the government. So all aid is not 
suspended to Honduras right now. The only aid that is suspended 
is the portion of the aid that is given directly to the 
government.
    And because of the way the U.S. gives foreign assistance, 
with much of it being executed by nongovernmental agencies, 
actually the total amount is not that large. I think that is a 
very legitimate and important concern.
    Could I address one previous issue just very briefly?
    Mr. Meeks. Go right ahead.
    Ms. Olson. I think that if the scenario had played out in 
that the Supreme Court ordered the arrest of President Zelaya, 
the President was arrested by legitimate authorities tasked 
with arresting people, and that he was put in jail, and that 
proceedings were taken against him, that would have been 
completely legitimate.
    Mr. Meeks. I agree. Absolutely.
    Ms. Olson. And for me, the issue is not right now, does the 
military run the country? The question of a coup is not, who is 
running the country entirely at this moment? The question is, 
was the President illegally deposed?
    And actually, the 7008 language talks about a military coup 
or decree. So it sees the coup concept beyond just the military 
taking over.
    Another thing, if you are going to talk legality and 
illegality, if you illegally remove the President from the 
country, then aren't the people taking over violating the law 
as well? That was my point. It seems like there were a lot of 
things that could have been questionable legal activity.
    Mr. Meeks. I agree. That is why I used the hypothetical 
earlier in my opening statement that had we not had the process 
taking place--I have got 30 seconds; I see the gavel--you know, 
that we could have taken--someone could have said President 
Nixon was violating the law and just taken him out of the 
country. But generally, if you violate the law and you have the 
rules, you do come in, you arrest someone, you place them under 
arrest, and therefore there is a proceeding that takes place so 
that one can be found guilty or innocent, not just summarily. 
That seems to me to be more of a democratic and fair way to go. 
That did not take place here. So in my estimation, by any 
stretch of the imagination, a coup did take place.
    Mr. Engel. The gentleman's time has expired.
    Mr. McCaul.
    Mr. McCaul. I thank the chairman.
    I think we have reached some consensus, but not entirely. 
Clearly, the President violated the Constitution. The Supreme 
Court held so, held that he was acting against the established 
form of government. We have an order here to the military to 
arrest him. He was ordered--he was found to be in treason 
against his own country, abused his authority and usurped his 
power.
    As Mr. Davis pointed out very eloquently, when article 239 
self-executes, once that is violated, which it was in this 
case, he is out of power. He is no longer the President of 
Honduras.
    I think the real dilemma here is, how was this order 
implemented, and how did the military respond to this order to 
arrest him? And does the definition of arrest include deporting 
him to another country? I know there were some concerns, 
certainly when we have the intervention of Hugo Chavez into the 
process and the intervention of these ballots from Venezuela, 
tremendous concern of the safety and the danger that is posed 
by keeping him in Honduras. We have been throwing around the 
word military coup pretty loosely.
    But as Mr. Meeks points out, it is actually very important, 
because under the omnibus appropriations act that we passed, if 
it is defined as military coup, then the funding is cut off to 
Honduras by the United States Congress. So I think that 
definition, and I think again this has been thrown around very 
loosely, but the idea, you know, that there was a violation of 
the Constitution, the Supreme Court held so, called for the 
arrest, Article 239 self-executes, he is now a private citizen 
in my view. The real issue with him lies with what is the 
remedy that we can provide to him in terms of from this point 
going forward? But he is no longer the President under the rule 
of law in Honduras and under their Constitution.
    And former Supreme Court Justice Perez-Cadalso, I wanted to 
call upon you, and perhaps Mr. Davis as well, to help us and 
the administration in terms of whether you define this as a 
military coup.
    Mr. Perez-Cadalso. Thank you, Congressman.
    Back in the 1960s and 1970s, Latin America was full of coup 
d'etats. I myself lived through many of them.
    But reading any text of political science, one finds that 
the coup d'etats have some characteristics. One, the military 
seizes power, and they take power, or they do a civic military 
junta.
    Second, they abolish the other powers or the branches of 
government, certainly Congress and sometimes even the 
judiciary.
    Third, the Constitution is abolished or is subject to 
whatever the military regime wants.
    Fourth, usually there is a bloodbath that occurs with the 
takeover of the military.
    In this case, we have a very atypical situation. One, the 
military is not in power. There is a civilian ruling the 
country. The military has returned to the barracks.
    Second, the three branches of government are functioning: 
The Congress that was elected 4 years ago with President 
Zelaya; the judiciary, with its 15 members; and the branch of 
government, the executive branch of government, that was 
elected by Congress, in this case, 124 votes out of 128.
    The Constitution is fully in charge. Nobody has questioned 
the Constitution.
    And fortunately for us Hondurans, there was no bloodshed in 
the moment that Mr. Zelaya was arrested.
    Mr. Engel. The gentleman's time has expired. And as you 
have heard, we have just been called for a vote. So I am going 
to try to see if we can finish before the actual vote takes 
place. I am going to ask my colleagues if they could limit 
themselves with their questions to maybe one quick question for 
about 2 minutes.
    Mr. McCaul. Let me just say thank you for that testimony as 
well.
    Mr. Engel. And Mr. Green.
    Mr. Green. I am going to try to squeeze two questions in 2 
minutes. First of all, on July the 3rd, the Inter-American 
Commission on Human Rights issued a statement about deep 
concerns over Executive Decree 011-2009 from the authorities in 
Honduras restricting personal liberty and allowing 
incommunicado detention for 24 hours, freedom of association 
and right of assembly, as well as freedom of movement to enter 
and leave and remain on the territory of Honduras. Is that 
still in effect, or does that have any concern like it does I 
think with a lot of members that in a national emergency that 
was created and continuing?
    Ms. Olson?
    Ms. Olson. My understanding is that the suspension of 
liberties during certain hours of the day, which was put 
forward, has been--is being reduced over the past couple days. 
I haven't checked. I didn't check yesterday, so I am not sure.
    We have been concerned about it, yes. And one of the big 
things we have been concerned about, and that I think has 
affected things a lot, has been the restriction of the media. 
Pretty much all of the opposition media were taken off the air, 
and they weren't showing up in print either. So you ended up 
with a real one-sided view of what was going on.
    Mr. Davis. Actually, Congressman, that is not a correct 
statement. It happened very briefly. All the media is operating 
as we speak. There are vociferous protests on both sides. 
Democracy is flourishing. I do agree that the curfews are the 
only thing in place that are nighttime curfews. But as far as 
any civil liberties, as far as I know from the distance, the 
answer is democracy and civil liberties are still flourishing.
    Mr. Green. Let me get my other question in quickly. The 
change in Constitutions and power in Western Hemisphere, and I 
know there are other countries, Colombia, Venezuela, Bolivia, 
Ecuador, Honduras, is that fairly common? It seems like, 
though, except for Colombia, we hear it from people who are 
mostly aligned with President Chavez in Venezuela. Is that a 
general correct statement? Extending the terms of office by 
public referendum?
    Mr. Reich?
    Mr. Reich. Mr. Green, as I commented in my testimony, that 
pattern of certain elected leaders coming in through an 
election, as Chavez did 10 years ago, as Zelaya did 4 years 
ago, as Correa of Ecuador, as Morales of Bolivia----
    Mr. Green. Frankly, I think President Uribe did the same 
thing, I believe, in Colombia, extended the term.
    Mr. Reich. No, Uribe has not done that. He has presented 
that. He hasn't decided yet whether he is going to run. The 
Constitution was changed in Colombia, that is correct, to allow 
a second term.
    I personally, in my personal opinion--I am not a Colombian, 
so I didn't vote on that one--I don't think that that is good. 
I don't think it is good for Colombia any more than I think it 
was good for Honduras or that it has been good for Venezuela or 
Bolivia or Ecuador or the others. But that is just my personal 
opinion and based on 40-some years of working in Latin America, 
where some countries, for example, like Mexico, have made it 
part of their Constitution, there is no reelection because they 
know that, unfortunately, I don't know, for some reason, 
cultural reasons or political or whatever, once people get into 
power they don't want to give it up.
    Mr. Engel. I am going to let that be the final word for 
this question.
    Mr. Smith, 2 minutes.
    Mr. Smith. Mr. Chairman, thank you.
    As the crisis in Honduras was heating up, I was actually in 
Minsk, Belarus, meeting with President Lukashenko, the last 
dictator in Europe. He is the man who was elected, dissolved 
his parliament, rewrote the Constitution to allow him to be 
President for life, and I remember thinking, not again, not 
again, not again. Now, it almost happened in Honduras.
    Mr. Zelaya has been accused of several very serious crimes, 
including treason, abuse of authority, and usurpation of power. 
The Supreme Court has voted unanimously, as everyone has said 
here. All of the democratically-elected institutions of that 
government are trying to uphold the rule of law.
    Now, as Dr. Arias grapples with this whole issue of what to 
do, it seems to me that one of the top questions has to be, 
should Mr. Zelaya be prosecuted? I don't know how those kinds 
of charges just get swept under the table. People in Honduras, 
in the United States, and every other country want the rule of 
law to be upheld. Serious charges have been leveled. I believe 
he should be prosecuted. I would like to know, starting with 
you, Justice Perez, what do you think?
    Mr. Perez-Cadalso. Thank you, Congressman.
    Before the question had been posed about the return of Mr. 
Zelaya to the country, that of course will be put forth in the 
mediation table. But the problem will be too, I am almost sure 
that that is going to be put forward and for him to return as 
President.
    The thing that would worry any Honduran that respects the 
rule of law would be that, if he returns, if things follow the 
legal trend, he will be arrested when he gets to Honduran soil. 
He has to be arrested if we respect the rule of law. There is a 
warrant for his arrest. So that poses a problem in the 
mediation.
    And the other problem would be his governability. How would 
he be able to govern in a country that has a majority of the 
institutionality that is opposing him? Everybody on this panel 
has talked about not only the judiciary, Congress, but the 
human rights commissioner, the attorney general, the Catholic 
Church. Everybody has expressed that he was in contempt of law, 
that he was besides the law, and that he should be prosecuted, 
especially because he was rebellious with all the orders that 
were issued by other instances of the judiciary power.
    Mr. Engel. Thank you.
    I think we are going to have let that be the last word on 
this question.
    Mr. Payne.
    Mr. Payne. Let me ask very quickly. I hear the business 
people, the Catholic Church, everybody else have condemned 
this. I understand that the minimum wage was raised, that a lot 
of indigenous people were supportive, that the Afro-Hondurans, 
can anybody speak about that group? I haven't heard them 
mentioned. They were in support of this coup? They wanted him 
out? A person who raised the minimum wage, a person who came to 
New York to swear in an organization called the Central 
American Black Organizations, made up of people of African 
descent throughout Central America to show their respect to 
that organization. Anybody have any of the indigenous or the 
minority people's position? Quickly?
    Mr. Davis. Well, four out of the five political parties, 
including the party who was representing many of the unions, 
many of the poor people, simply upheld the law, Congressman, 
and found that he violated the law.
    But if I may say, I would hope you would not support a cut 
off of aid, which will hurt the poorest people in Honduras, and 
to have the United States Government cut off aid where the 
people who will suffer are the people who are least able to 
cope with the cut off of that aid. I hope that both Democrats 
and Republicans would not support a cut off of aid at this very 
important time.
    Mr. Payne. One thing, we do have to discourage military 
coups. And much of the aid goes around the government. And so I 
certainly couldn't see us continuing giving support to someone 
who was taken out of office by the army. And I just want to 
conclude, because my time is about up, that I am just 
certainly--I am outraged by the representation of the new 
government with their foreign minister.
    Mr. Davis. He has been forced out, Congressman. He is no 
longer----
    Mr. Payne. Okay. But it must have some kind of reflection 
of the group. Because when he says three times about this new 
little Black man who is the President of the United States, and 
then talked about, as Mr. Delahunt, I negotiated with queers 
and prostitutes, leftists, Blacks and Whites, that is my job, 
however, I like this little Black sugar plantation worker who 
is President of the United States. I don't want to sound like I 
am prejudiced, but a statement like that certainly offends me.
    Mr. Davis. Congressman, he is not a reflection of anybody. 
He was sacked. He is a far-out extremist bigot, and there is 
nobody in the Honduran Government that didn't support him being 
sacked.
    Mr. Payne. Who appointed him? The same guys that took out 
the former President? They must have put him in.
    Mr. Davis. Well, he got sacked.
    Mr. Payne. Well, he got in.
    Mr. Reich. May I add, Mr. Payne, that Hugo Chavez used 
exactly the same term to describe President Obama?
    Mr. Payne. I am talking about, you know, this country. I 
should have raised it then. I didn't hear it from Chavez.
    Mr. Reich. It is reprehensible no matter who says it----
    Mr. Payne. Right. I agree.
    Mr. Reich [continuing]. Whether it is left or right. At 
least in the case of Honduras, the foreign minister was fired.
    Mr. Payne. Ms. Lee is not going to have any time, so I am 
going to yield.
    Mr. Engel. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes, I think that was a very good point 
that Ambassador Reich was about to make.
    Yeah, let's have one standard. And one standard is when 
Hugo Chavez says something, that you condemn him as much as you 
are condemning some guy that this group sacked because they 
didn't want to have anything to do with that type of language.
    Mr. Reich, or Mr. Ambassador Reich, I should say, didn't 
Mr. Chavez himself lead a coup d'etat in 1992?
    Mr. Reich. Yes, sir. That was a coup d'etat.
    Mr. Rohrabacher. And was his plan to put in power himself, 
who was a military man, or was his idea was to put another 
democratically-elected person into power?
    Mr. Reich. It was to put the military in power, to replace 
an elected President, who had not broken the law, President 
Carlos Andres Perez.
    Mr. Rohrabacher. And so Mr. Chavez, the greatest ally of 
this would be caudillo in Honduras, himself conducted a 
military coup against a democratically-elected government.
    Mr. Reich. Well, there is no question there is a double 
standard.
    I am glad, for example, Mr. Shifter referred to the double 
standard the OAS has been carrying out for the last several 
years, of overlooking the violations of civil rights by 
governments of the left. The very weekend that we were 
discussing here in this city what to do with the Government of 
Honduras, which has been described here as having trampled on 
civil rights, Hugo Chavez announced he was closing down 240 
radio stations in Venezuela. I didn't even see that reported in 
the United States.
    Mr. Rohrabacher. Right. With this going on in Honduras, 
that is exactly what we could have expected from this would be 
caudillo, who is also implicated in the drug trade, in 
corruption. That is what we could expect from him.
    That is why his people, who understood him and his fellow 
political people on all sides of the spectrum down there in 
Honduras, think that it was the right thing to remove him from 
power because he had violated the Constitution.
    Mr. Engel. The gentleman's time has expired.
    Dr. Arnson, 30 seconds.
    Ms. Arnson. Briefly, I welcome the reference to the coup 
attempted by President Chavez. He was jailed for that attempt. 
And then subsequently, you know, was elected. This is not a 
defense of the Venezuelan Government. But I think all of the 
people that have so passionately spoken on behalf of the rule 
of law have not mentioned the fundamental role of due process 
as a key aspect of the rule of law.
    And I think that if we can agree that it is not right to 
arrest someone in the middle of the night in his pajamas and 
put him on a plane, that there would have been, that there 
would have been legal remedies for the resolution of this 
crisis.
    Mr. Smith. The next step in rule of law----
    Mr. Engel. Mr. Smith, no, I want to give Ms. Lee a chance.
    Mr. Smith [continuing]. Is to prosecute.
    Mr. Engel. Ms. Lee.
    Ms. Lee. Let me just associate myself with the remarks of 
Congressman Payne. And now I am learning also that--well, it is 
clear that the Honduran business community supported the coup. 
I am learning that President Zelaya had, you know, raised the 
minimum wage. Because it has been said here how the business 
community has supported the coup and the church has supported 
the coup.
    Now I am learning that the church didn't, of course, like 
his veto in the legislation to ban the morning-after pill. And 
so the more and more you dig into this, you can understand why 
some of what has been said is the case.
    I wanted to ask you about the Inter-American Commission 
report on human rights on July 3rd. They issued actually a 
statement expressing deep concern over the human rights 
violations. And the Commission said fundamental rights have 
been restricted, such as personal liberty, allowing 
incommunicado detention for more than 24 hours, freedom of 
association, the right of assembly, as well as freedom of 
movement to leave and enter and remain in the territory of 
Honduras.
    So given the reports about human rights abuses coming from 
this puppet or de facto government, what is an appropriate 
response to that from those who support this whatever it is 
that has been placed into power?
    Mr. Reich, maybe you can answer that for me.
    Mr. Reich. I am not sure I understand the question, but I 
think
    Ms. Lee. The Human Rights Commission report that I just 
read in terms of the fundamental rights being restricted as a 
result of the coup, what is your position on, how do we address 
it?
    Mr. Reich. I will not justify the restriction of civil 
rights by any government, period.
    However, we need to also look at what led to the events of 
June 28 in Honduras. There had been violations of the Honduran 
people's civil rights by the Zelaya government. This didn't 
just happened. The Honduras Supreme Court didn't wake up that 
Friday morning and decide, why don't we write an opinion 
unanimously to get rid of the President. It was a succession of 
violations of their own law.
    Ms. Lee. Well, let me just say, we have had Presidents who 
many of us believe have violated our own law and the 
Constitution and none of us have suggested any coup d'etats. We 
have also suggested moving forward with a democratic process to 
make sure democracy prevails.
    Mr. Reich. Right, because our system works, and the 
institutions work, and what I think we are failing to see here 
is that the institutions of Honduras also work, and you know, I 
think this is a dialogue to the death, frankly, on the question 
of the coup.
    You heard former members of the Honduras Supreme Court tell 
you that, by their law, the actions of the President 
constituted a self-activating rule by which he ceased to be the 
President of Honduras. I am not a lawyer, as I said in my 
testimony, I am not qualified to judge. But I think Mr. Perez-
Cadalso certainly is, and he is saying to us as a President of 
the Supreme Court, who I quote in my testimony, who said that 
that action was legal, Congresswoman Lee.
    I don't think that the Congress of the United States should 
sit in judgment of the Supreme Court of another country.
    Ms. Lee. Well, let me tell you, Cuba has its Constitution, 
and there are those who are saying, talking out of both sides 
of their mouth.
    Mr. Reich. Well, and there were also Nuremberg laws in 
Germany if you want to defend those kinds of laws.
    Mr. Engel. Let me move on. We have a member of the 
committee with us, although not a member of the subcommittee. 
And she has been very patient, and I would like to give her an 
opportunity to ask a quick question.
    That is Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, you are very kind, and I 
will be very, very brief.
    This is a crucial and important hearing. I probably beg to 
differ with my dear friend Mr. Reich. I think it is important 
for constitutional governments to comment on the process of 
government.
    I would offer this. I think it is good news that the 
President of Costa Rica and Secretary Clinton are in the 
engagement process, Mr. Davis, and I thank you for that.
    Here is my offer and suggestion. One, I would like to ask 
Ms. Olson very quickly, do you think the pause we have on aid 
is positive?
    Secondarily, I would like to hear from anyone who would 
like to answer whether or not there would be an acceptance of 
the return of this President to finish out his stated 
constitutional term. Because that is the crunch of what I 
believe is the fault. This was a coup. This was a disruption of 
government. This was using tools that I don't believe are 
written in the Honduran Constitution. Is a coup written in the 
Constitution? If you can point to me, then I will say that this 
meeting should end.
    I will end on that note and ask Ms. Olson about the pause 
of aid. It is not a complete elimination and anyone else that 
wants to answer whether they would accept the negotiations of 
Secretary Clinton and the President of Costa Rica.
    And I thank you very much, Mr. Chairman. I yield back and 
let me say the name right, the President of Costa Rica thank 
you.
    Ms. Olson. Just to respond to the question, I don't have 
the number right in front of me, but it is not a huge 
percentage being suspended right now because so much of U.S. 
aid now doesn't go directly to the government. It goes through 
nongovernmental organizations.
    Do I think it is appropriate to suspend aid after coups? 
Yes, I do, because there have to be some kinds of mechanisms 
that countries can use to show their disagreement with 
something that has happened.
    So, yes, I do think it is appropriate, and no, we haven't 
cut off all aid to Honduras.
    Ms. Jackson Lee. So it is not an indictment of what we are 
trying to do. Thank you.
    Anyone want to answer about these negotiations.
    Mr. Davis. Congresswoman Lee, first of all, it is nice to 
see you.
    And secondly, I did want to correct the record by 
Congresswoman Lee. The business community did not support 
violating any constitutional or legal procedures regarding 
shipping Mr. Zelaya out of the country. I said, when you 
weren't here, Congresswoman Lee, that with the wisdom of 
hindsight, it could have been done differently, but 
understanding the context of the fear at the time that he 
needed to be arrested, and he needed to be prosecuted, and that 
is the rule of law, and I will let the parties themselves, if 
and when he returns, how the rule of the law is going to be 
upheld.
    And still, as President Obama always tells us and Secretary 
Clinton always tells us, let's come together in dialogue and 
find a solution where there is no bloodshed, where we can 
restore the rule of law.
    That is why Secretary Clinton has done such a great job in 
letting President Arias try to mediate.
    Ms. Jackson Lee. Well, I agree, I just yield back and 
repeat, that coup is not in the Constitution. We all adhere to 
the rule of law, and I do believe there should be a return.
    I yield back to the chairman.
    Mr. Engel. Unless there is anyone who would like to add 
anything, Mr. Mack and I have agreed to stay, but I think we 
have covered it pretty thoroughly, and we have had all 
different points of view both from my colleagues here and also 
from the panelists.
    So unless anyone else anything they really must say, I want 
to thank each and every one of you for very, very important 
testimony for what I consider this very, very important 
hearing.
    This subcommittee will continue to monitor the events in 
Honduras, and we will continue to act accordingly, so I thank 
the panelists. I thank my colleagues, and the subcommittee 
hearing is now adjourned.
    [Whereupon, at 1:18 p.m., the subcommittee was adjourned.]
                                     

                                     



















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                                 <all>

</pre></body></html>
